                                                      "~
                                                           ",,"'v
                                                               ,   ., 1

                                                            us~


                                                ~!""
                                            SOOAL SECURITY
                                             Office of the Inspector         General
MEMORANDUM
                                                                                           Refer To:
Date:      October   24,   2001


To:        Horace L. Dickerson, Jr.
           Regional Commissioner
           Region VI
From:
           Inspector General


Subject:
           Financial-Related Audit of an Individual Representative Payee for the Social Security
           Administration in Region VI (A-06-00-10063)


           The attached final report presents the results of our review. Our objectives were to
           determine whether the Representative Payee (1) had effective safeguards over the
           receipt and disbursement of Social Security benefits and (2) ensured Social Security
           benefits were used and accounted for in accordance with the Social Security
           Administration's       policies and procedures.

            Please comment within 60 days from the date of this memorandum on corrective action
            taken or planned on each recommendation. If you wish to discuss the final report,
            please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
            General for Audit, at (410) 965-9700.




                                                                          'James G. Huse, Jr.



            Attachment

            cc:
            Fritz Streckewald
            JoEllen Felice
            Dan Sweeney
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



   FINANCIAL-RELATED AUDIT OF AN
 INDIVIDUAL REPRESENTATIVE PAYEE
      FOR THE SOCIAL SECURITY
     ADMINISTRATION IN REGION VI

  October 2001     A-06-00-10063




   AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                   Executive Summary
OBJECTIVE
Our objectives were to determine whether the Representative Payee (1) had effective
safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured Social Security benefits were used and accounted for in accordance with
the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their age or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries and recipients’ benefit payments. A Rep Payee may be an individual or an
organization. SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance
beneficiaries or Supplemental Security Income recipients when representative
payments would serve the individual’s interests. Rep Payees are responsible for using
benefits to serve the beneficiary or recipient’s best interests. Their duties include:

·   Using benefits to meet the beneficiary or recipient’s current and foreseeable needs;

·   Conserving and investing benefits not needed to meet the individual’s current needs;


·   Maintaining accounting records of how the benefits are received and used;

·   Reporting events to SSA that may affect the individual’s entitlement or benefit
    payment amount;

·   Reporting any changes in circumstances that would affect their performance as a
    Rep Payee; and

·   Providing SSA an annual Representative Payee Report (RPR) accounting for how
    benefits were spent, conserved, and/or invested.

We selected this Rep Payee from a SSA generated list of “Individual” Rep Payees with
20 or more beneficiaries or recipients in their care. All of the Rep Payees’ beneficiaries
and recipients were residents of Prague Assisted Living Center (PAL). While
performing our audit, we determined that the Rep Payee operated PAL as an
incorporated entity, and, according to SSA’s records, PAL also served as the Rep
Payee for some of its residents. Accordingly, we included in our review, all beneficiaries
for whom this individual served as Rep Payee, either as an individual or as the
incorporated entity—PAL. PAL charged its residents a monthly fee for room and board.



Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)    i
According to the Rep Payee, all PAL residents have some type of mental disorder.
Each year, to determine whether the residents are receiving adequate care, (1) the
Oklahoma State Department of Health performs a review of PAL to renew its license,
and (2) the Oklahoma State Department of Mental Health annually certifies PAL as a
Residential Care Facility and conducts an unannounced mid-term review.

RESULTS OF REVIEW
In general, it appears that the Rep Payee met its responsibilities for ensuring the
beneficiaries and recipients’ needs were met. However, the Rep Payee lacked
documentation to fully account for the receipt and disbursement of SSA benefits in
accordance with SSA’s policies and procedures. The lack of documentation was
mitigated by the fact that the majority of the benefit payments received by the Rep
Payee consisted of funds that PAL was entitled to as monthly room-and-board fees.

As part of the services included in the room-and-board fees, the Rep Payee, through
PAL, provided the beneficiaries with food and shelter, administered their medications,
and took them to planned social activities. PAL’s records reflected that 92 percent of
the $188,927 of SSA benefits received represented payment for monthly room-and-
board fees. The remaining 8 percent ($15,845) belonged to the beneficiaries and
recipients. The Rep Payee told us that payments exceeding the room-and-board fees
were given to the beneficiaries either as cash or personal items; however, the Rep
Payee did not have adequate documentation to support disbursement of these funds.
Further, the Rep Payee did not use separate bank accounts for individual funds, or have
procedures in place that would allow her to provide beneficiaries and recipients an
up-to-date reporting of how their funds were spent.

The Oklahoma State Department of Health certified the license for the Rep Payee to
conduct and maintain a Residential Care Home on August 27, 1999. This license
renewal was effective for the period May 6, 1999 through May 5, 2001. The process for
a license renewal includes a compliance inspection of the center. Areas reviewed
included building elements, medication storage and maintenance, criminal background
checks, nurses aides, personnel lists, resident's council, housekeeping, food service,
staff qualifications, staff training, medications, and administration of medications.

The Oklahoma State Department of Mental Health and Substance Abuse Services
issued its certification report for PAL on February 15, 2000. Per our discussion with a
State reviewer, he informed us that they perform a yearly review of the facility and
another unannounced review (mid-term). The yearly review consists of grading the
facility on a point system. If the facility is below 90 percent, some action is required by
the facility to improve any problems found. His assessment of PAL was that they had
no major problems, but did have some improvements to make. The certification report
dated February 15, 2000 resulted in a score of 94 percent for PAL.

We found that the Rep Payee was listed under three identities in SSA’s Rep Payee
System (RPS) during our audit period. SSA uses the number of beneficiaries and


Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)       ii
recipients as a guideline to determine whether to conduct on-site reviews of individual
Rep Payees. As a result of being listed under multiple identities, a required on-site
review might not be performed if the number of beneficiaries and recipients per identity
is less than the number used for selection.

We could not determine whether the Rep Payee properly reported to SSA how benefits
were used in all cases, because SSA could not locate 7 of the 21 RPRs we requested.
(See Other Matters section of this report). The Rep Payee used estimated amounts to
complete RPRs, rather than using actual receipt and disbursement amounts.
Therefore, there was no accountability for the actual receipt and use of funds, creating
the vulnerability that funds could be diverted without timely detection. Also, SSA
apparently classified this Rep Payee as an individual Rep Payee based on the
presumption that the Rep Payee did not meet the organizational Rep Payee licensing
requirements. (See Other Matters section of this report.) However, SSA’s RPS
sometimes categorized the Rep Payee as an “Individual Payee,” and, on other
occasions, categorized the Rep Payee as an “Organizational Payee.” SSA considers
correct coding of a Rep Payee’s classification as critical to subsequent payee
operations, including accounting and targeting high-risk Rep Payees.

RECOMMENDATIONS
We recommend that SSA:

·   Work with the Rep Payee to determine the appropriate level of documentation to
    account for and report on the receipt and disbursement of SSA benefits in
    accordance with SSA’s policies and procedures, including procedures to properly
    account for and safeguard individual funds and accurately complete RPRs. These
    procedures should clearly address the need for timely, accurate cash logs as well as
    the need to establish and maintain individual ledger sheets as deemed appropriate.

·   Ensure that multiple identities are not used for this Rep Payee in RPS.

AGENCY COMMENTS
In response to our draft report, SSA agreed with both of our recommendations. (See
Appendix A for SSA’s comments.)




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)    iii
                                                                          Table of Contents
                                                                                                                 Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................5

    Accounting for Funds ........................................................................................6

    ·    Bank Accounts..............................................................................................6
    ·    Ledger Sheets ..............................................................................................7
    ·    Cash Disbursements ....................................................................................8

    Representative Payee System...........................................................................9

CONCLUSIONS AND RECOMMENDATIONS.....................................................10

OTHER MATTERS ...............................................................................................11

    Rep Payee Reports..........................................................................................11

    Rep Payee Classification ................................................................................11

APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – OIG Contacts and Staff Acknowledgments




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)
                                                                         Acronyms
OASDI                        Old-Age, Survivors and Disability Insurance

PAL                          Prague Assisted Living Center

POMS                         Program Operations Manual System

Rep Payee                    Representative Payee

RPR                          Representative Payee Report

RPS                          Representative Payee System

SSA                          Social Security Administration

SSI                          Supplemental Security Income




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)
                                                                    Introduction
OBJECTIVE
Our objectives were to determine whether the Representative Payee (1) had effective
safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured Social Security benefits were used and accounted for in accordance with
the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their age or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries and recipients’ benefit payments. A Rep Payee may be an individual or an
organization. SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance
(OASDI) beneficiaries or Supplemental Security Income (SSI) recipients when
representative payments would serve the individual’s interest.

Rep Payees are responsible for using benefits to serve the beneficiary or recipient’s
best interests. Their duties include:

·     Using benefits to meet the beneficiary or recipient’s current and foreseeable needs;

·     Conserving and investing benefits not needed to meet the individual’s current needs;

·     Maintaining accounting records of how the benefits are received and used;

·     Reporting events to SSA that may affect the individual’s entitlement or benefit
      payment amount;

·     Reporting any changes in circumstances that would affect their performance as a
      Rep Payee; and

·     Providing SSA an annual Representative Payee Report (RPR) accounting for how
      benefits were spent, conserved, and/or invested.

About 6.5 million individuals have Rep Payees—approximately 4.2 million are OASDI
beneficiaries, 1.7 million are SSI recipients, and 500,000 are entitled to both OASDI
benefits and SSI payments.1 The following chart reflects the types of Rep Payees and
the number of individuals they serve.


1
    Numbers do not add due to rounding.


Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)      1
                                                         Number                Number of
               Type of Rep Payee                            of                 Individuals
                                                        Rep Payees               Served
 Individual Payees: Parents, Spouses, Adult
 Children, Relatives, and Others                          4,155,000             5,750,000
 Organizational Payees: State Institutions,
 Local Governments and Others                                44,150               690,000
 Organizational Payees: Fee-for-Service
                                                                 850               60,000

                       Total                              4,200,000             6,500,000

We selected this Rep Payee based on a SSA generated list of “Individual” Rep Payees
with 20 or more beneficiaries or recipients in their care. All of the selected Rep Payee’s
beneficiaries and recipients were residents of Prague Assisted Living Center (PAL).
While performing our audit, we determined that the Rep Payee operated PAL as an
incorporated entity, and, according to SSA’s records, PAL also served as the Rep
Payee for some of its residents. Accordingly, we included in our review all beneficiaries
for whom this individual served as Rep Payee, either as an individual or as the
incorporated entity—PAL.

PAL is classified as a Residential Care Facility licensed by the Oklahoma State
Department of Health for a maximum of 37 beds. It was incorporated in the State of
Oklahoma on May 22, 1997. According to the Rep Payee, all residents of PAL have
some type of mental disorder. Each year, to determine whether the residents are
receiving adequate care, (1) the Oklahoma State Department of Health performs a
review of PAL to renew its license, and (2) the Oklahoma State Department of Mental
Health annually certifies PAL as a Residential Care Facility and conducts an
unannounced mid-term review.

PAL charges each resident a monthly fee for room and board. PAL charged $500 per
month during 1999 and $512 per month during 2000 for room and board. These
amounts equaled the maximum amounts paid to SSI recipients in 1999 and 2000. An
individual who elects to stay at PAL signs an agreement that describes the following
services that PAL provides.

       A room with outside window, bed, closet space, central heating and air
       conditioning. Linens, laundering of same, and laundering of personal
       items. Three meals and three snacks daily in the dining room. Some
       special diets provided. Access to public areas at all times. Ordering,
       storage, supervision and administration of medication. Planned social
       activities. Bathing facilities and cleaning agents for your bath. Assistance
       with housekeeping of your area.




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)      2
From September 1999 through August 2000, SSA paid the Rep Payee $188,927 in
OASDI benefits and SSI payments for 51 individuals, as shown in the following table.

                                                Benefits Received
                       Number                                                    Total SSA
                       of Cases                SSI              OASDI             Funds
SSI                       31                 $112,748               $0            $112,748
OASDI                       8                         0           35,991              35,991
Concurrent                 12                  12,267             27,921              40,188
      Total                51                $125,015            $63,912           $188,927


SCOPE AND METHODOLOGY
Our audit covered the period of September 1, 1999 through August 31, 2000.

To accomplish our objectives, we:

·   Reviewed the Social Security Act, SSA regulations, rules, policies and procedures
    pertaining to Rep Payees.

·   Contacted SSA Headquarters, regional office, and field office staff to obtain
    background information about the Rep Payee’s performance.

·   Contacted Oklahoma State agencies to inquire about State certifications for
    residential care facilities.

·   Obtained from SSA’s Rep Payee System (RPS) a list of individuals who were in the
    Rep Payee’s care and received SSA funds as of September 25, 2000 or who left the
    Rep Payee’s care after August 31, 1999.

·   Obtained from the Rep Payee a list of individuals who were in the Rep Payee’s care
    and received SSA funds as of September 25, 2000 or who left the Rep Payee’s care
    after August 31, 1999.

·   Compared and reconciled the RPS and the Rep Payee’s listings to identify the
    population of SSA beneficiaries and recipients who were in the Rep Payee’s care
    from September 1999 through August 2000.

·   Reviewed and tested the Rep Payee’s internal controls over the receipt and
    disbursement of OASDI benefits and SSI payments.




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)        3
·   We performed the following tests for each of the 51 beneficiaries and/or recipients.

    -   Compared and reconciled benefit amounts paid according to the Rep Payee’s
        records to benefit amounts paid according to SSA’s payment records.

    -   Reviewed the Rep Payee’s accounting records to determine whether benefits
        were properly spent or conserved on the individuals’ behalf. We also determined
        whether SSA was due a refund for benefits that were not properly used.

    -   Traced a sample of expenses to source documents and examined the underlying
        documentation for reasonableness and authenticity.

·   Talked with selected beneficiaries/recipients and/or caregivers, and toured the Rep
    Payee’s room-and-board facility—PAL—to determine whether the Rep Payee was
    meeting the individuals’ basic needs.

·   Reviewed a sample of RPRs to determine whether the Rep Payee properly reported
    to SSA how benefits were used.

We performed our audit in Dallas, Texas; Prague, Oklahoma; and SSA’s Shawnee,
Oklahoma, field office between October 2000 and February 2001. We conducted our
audit in accordance with generally accepted government auditing standards.




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)    4
                                                     Results of Review
In general, it appears that the Rep Payee met its responsibilities for ensuring the
beneficiaries and recipients’ needs were met. However, the Rep Payee lacked
documentation to fully account for the receipt and disbursement of Social Security
benefits in accordance with SSA’s policies and procedures. The lack of documentation
was mitigated by the fact that the majority of the benefit payments received by the Rep
Payee consisted of funds that PAL was entitled to as monthly room-and-board fees.

As part of the services included in the room-and-board fees, the Rep Payee, through
PAL, provided the beneficiaries with food and shelter, administered their medications,
and took them to planned social activities. PAL’s records reflected that 92 percent of
the $188,927 of SSA benefits received represented payment for monthly
room-and-board fees. The remaining 8 percent ($15,845) belonged to the beneficiaries
and recipients. The Rep Payee told us that payments exceeding the room-and-board
fees were given to the beneficiaries either as cash or personal items; however, the Rep
Payee did not have adequate documentation to support disbursement of these funds.
Further, the Rep Payee did not use separate bank accounts for individual funds, or have
procedures in place that would allow her to provide beneficiaries and recipients an
up-to-date reporting of how their funds were spent.

The Oklahoma State Department of Health certified the license for the Rep Payee to
conduct and maintain a Residential Care Home on August 27, 1999. This license
renewal was effective for the period May 6, 1999 through May 5, 2001. The process for
a license renewal includes a compliance inspection of the center. Areas reviewed
included building elements, medication storage and maintenance, criminal background
checks, nurses aides, personnel lists, resident's council, housekeeping, food service,
staff qualifications, staff training, medications, and administration of medications.

The Oklahoma State Department of Mental Health and Substance Abuse Services
issued its certification report for PAL on February 15, 2000. Per our discussion with a
State reviewer, he informed us that they perform a yearly review of the facility and
another unannounced review (mid-term). The yearly review consists of grading the
facility on a point system. If the facility is below 90 percent, some action is required by
the facility to improve any problems found. His assessment of PAL was that they had
no major problems, but did have some improvements to make. The certification report
dated February 15, 2000 resulted in a score of 94 percent for PAL.

We found that the Rep Payee was listed under three identities in SSA’s Rep Payee
System (RPS) during our audit period. SSA uses the number of beneficiaries and
recipients as a guideline to determine whether to conduct on-site reviews of individual
Rep Payees. As a result of being listed under multiple identities, a required on-site
review might not be performed if the number of beneficiaries and recipients per identity
is less than the number used for selection.



Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)       5
We could not determine whether the Rep Payee properly reported to SSA how benefits
were used in all cases, because SSA could not locate 7 of the 21 RPRs we requested.
(See Other Matters section of this report). The Rep Payee used estimated amounts to
complete RPRs, rather than using actual receipt and disbursement amounts.
Therefore, there was no accountability for the actual receipt and use of funds, creating
the vulnerability that funds could be diverted without timely detection. Also, SSA
apparently classified this Rep Payee as an individual Rep Payee based on the
presumption that the Rep Payee did not meet the organizational Rep Payee licensing
requirements. (See Other Matters section of this report.) However, SSA’s RPS has this
Rep Payee categorized as both an “Individual” Rep Payee and an “Organizational” Rep
Payee. SSA considers correct coding of a Rep Payee’s classification as critical to
subsequent payee operations, including accounting and targeting high-risk Rep Payees.

ACCOUNTING FOR FUNDS
The Rep Payee did not follow policies and procedures SSA recommended for tracking
and accounting for beneficiary and recipient funds. Our review showed that the Rep
Payee did not (1) use separate bank accounts for individual funds; (2) have procedures
in place that allowed her to provide beneficiaries and recipients with an up-to-date
reporting of how their funds were spent; and (3) adequately account for cash
disbursements.

Bank Accounts

The Rep Payee did not follow SSA’s recommended procedures to establish separate
bank accounts for the beneficiaries and recipients to track individual funds. Instead, the
Rep Payee deposited all checks directly into PAL’s business checking account. The
Rep Payee stated that separate accounts were not practical because most of the
individuals would have minimal or zero account balances each month. We noted that
PAL’s business checking account did not provide a clear trail of which beneficiaries or
recipients were included in total amounts deposited into the account. As such, the
business checking account did not serve as an adequate accounting of beneficiary and
recipient funds. Moreover, all the beneficiary and recipients funds should not have been
deposited into PAL’s account, since PAL is a separate and distinct legal entity from its
owner, the Rep Payee. A better approach would have been for the Rep Payee to
safeguard the funds in her own bank account and remit funds to PAL based on billings
from PAL for room and board and other documented goods and/or services provided to
the beneficiaries or recipients.

Although Rep Payees are not required to establish separate bank accounts for
beneficiaries and recipients, SSA recommends that Rep Payees hold an individual
beneficiary or recipient’s funds in a separate checking or savings account. The
beneficiary or recipient’s account should reflect that the beneficiary or recipient owns
the funds, and the Rep Payee has a fiduciary relationship with the beneficiary or




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)    6
recipient.2 In cases where more than one beneficiary or recipient is represented by the
same Rep Payee—which is the case with this Rep Payee—SSA allows a Rep Payee to
establish a collective checking or savings account for all the beneficiaries and
recipients. The use of a collective account is subject to conditions, including that the
account be separate from the Rep Payee’s checking account and that there be clear
and current records showing the amount of each beneficiary or recipient's share in the
account.3 We recognize that some recommended approaches for safeguarding and
accounting for Agency funds may not be practical in a one-owner business.
Considering the wide spectrum of entities that SSA deals with as a part of its Rep
Payee program, the Agency will inherently deal with individuals and organizations that
employ a variety of safeguard controls. As such, SSA must determine and document
what are acceptable exceptions to the Agency’s recommended approach to
safeguarding funds.

Ledger Sheets

The Rep Payee did not adequately account for beneficiary and recipient funds. Rep
Payees have the freedom to establish unique accounting procedures, subject to
meeting certain guidelines. Among these guidelines is that the accounting system allow
the Rep Payee to report annually to SSA on how the beneficiary or recipient's payments
were spent. Also, the accounting system must allow for up-to-date reporting so the
individual knows how the money was spent.4

The Rep Payee’s accounting for beneficiary and recipient funds consisted of monthly
ledger sheets that reflected the receipt of SSA benefits and the application of those
benefits to the room-and-board fees or cash disbursements to the individual. We
compared the amount of SSA payments to the amounts reflected in the Rep Payee’s
ledger sheets, and identified about $13,512 in SSI payments and OASDI benefits that
were not reflected in the ledger sheets. In discussing these differences with the Rep
Payee, the Rep Payee informed us the ledger sheets were prepared specifically for our
visit. The Rep Payee stated that she probably received the payments we identified but
had inadvertently failed to record them. Before our visit, the Rep Payee had not
maintained ledger sheets as procedures for accounting for beneficiary and recipient
funds.




2
    Representative Payee Program, Guide for Organizational Representative Payees, Conservation of
    funds, page 11.
3
    Representative Payee Program, Guide for Organizational Representative Payees, Conservation of
    funds, Collective Bank Accounts, page 12.
4
    Representative Payee Program, Guide for Organizational Representative Payees, Developing a payee
    system, page 8.



Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)                7
Cash Disbursements

Poor documentation prevented us from independently verifying that beneficiaries and
recipients were paid the funds that remained after their room-and-board fee had been
paid. PAL charged $500 per month during 1999 and $512 per month during 2000 for
room and board. These amounts equaled the maximum amounts paid to SSI recipients
in 1999 and 2000. Since the Rep Payee charged an amount that equaled the maximum
amount of SSI payments for a month, most of the beneficiaries or recipients included in
our review had little or no money on a month-to-month basis after paying for their room
and board.

For example, PAL’s ledger sheets showed that 29 of the 51 individuals had an average
of $0 to $50 available to them each month during the course of their residency at the
facility.5 Another six had a negative cash balance each month and eight had a monthly
average that exceeded $50. (See Chart 1.) We were unable to calculate an average
for eight individuals because the information for them was incomplete.



                     Number of Beneficiaries and Recipients with Available
                          Cash after paying for Room-and-Board

              $201-250
              $151-200
              $101-150
               $51-100
                  $0-50
          Less than $0

                             0                10               20                30              40
                                 Less than
                                             $0-50   $51-100        $101-150   $151-200   $201-250
                                    $0
                    Number          6         29        3              2          1          2


          Chart 1




5
    The monthly average cash available included receipts from other sources in addition to SSA benefits,
    less the cost of the monthly room-and-board fee.




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)                    8
The Rep Payee informed us that amounts in excess of the room-and-board fee were
paid to the individuals in either cash or personal items, such as cigarettes (during our
on-site visits to the PAL facility, we observed individuals receiving cigarettes). The cash
payments were either in one payment or as several payments throughout the month.
The Rep Payee recorded cash disbursements from excess funds as disbursements in a
cash log. We noted, however, that the cash log was incomplete and did not show
running balances for amounts due individuals. Also, the cash log did not reflect
transactions involving personal items provided to the beneficiaries and recipients.
Although the amount of excess funds was small during our audit period, the Rep Payee
still needs to improve her system of accounting for excess funds.

REPRESENTATIVE PAYEE SYSTEM
As shown in the table below, we found that the Rep Payee was listed under three
identities in RPS during our audit period. Although all 51 beneficiaries were residents of
the Rep Payee’s room-and-board facility, SSA’s RPS sometimes categorized the Rep
Payee as an “Individual,” and on other occasions, the Rep Payee was categorized as
an “Organization.” The chart below identifies how the Rep Payee was categorized for
the 51 beneficiaries and/or recipients we reviewed.

                                                                           Number of
                         Identity Listed in RPS                        Individuals Listed

          Rep Payee’s Social Security number                                     45
          Not A Choice—Don’t Use Prague Assisted Living                           5
          Prague Assisted Living                                                  1

SSA uses the number of beneficiaries and recipients as a guideline to determine
whether to conduct on-site reviews of “Individual” Rep Payees. The criteria for SSA site
visits for Rep Payees requires reviews of “Individual” Rep Payees serving 20 or more
beneficiaries.6 If an “Individual” Rep Payee is listed under more than 1 RPS identity—
with each identity listing fewer than 20 beneficiaries—he or she will not be automatically
selected for an on-site review. However, if cumulatively, the Rep Payee is serving 20 or
more beneficiaries, the Rep Payee should be selected for review. As a result, by RPS
listing a Rep Payee under multiple identities, a required on-site review might not be
performed. The field office overseeing a particular Rep Payee is responsible for making
appropriate corrections to RPS.




6
    EM-00072, Increased Monitoring of Fee-for-Service and Volume Representative Payees, June 1, 2000.



Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)             9
                                                     Conclusions and
                                                    Recommendations
While the Rep Payee did not follow SSA’s recommended policies and procedures for
disbursing and accounting for a small portion of beneficiary and recipient funds, the Rep
Payee generally met her responsibilities for ensuring the beneficiaries and recipients’
needs were met. The Rep Payee told us that payments exceeding the room-and-board
fees were given to the beneficiaries either as cash or personal items; however, the Rep
Payee did not have adequate documentation to support disbursement of these funds.

We recommend that SSA:

1. Work with the Rep Payee to determine the appropriate level of documentation to
   account for and report on the receipt and disbursement of SSA benefits in
   accordance with SSA’s policies and procedures, including procedures to properly
   account for and safeguard individual funds and accurately complete RPRs. These
   procedures should clearly address the need for timely, accurate cash logs as well as
   the need to establish and maintain individual ledger sheets as deemed appropriate.

2. Ensure that multiple identities are not used for this Rep Payee in RPS.

AGENCY COMMENTS
In response to our draft report, SSA agreed with both of our recommendations.
Specifically, SSA will ask its local field office to: (1) work with the payee to ensure
proper record-keeping and accurate RPRs; and (2) consolidate the RPS entries
and classify this Rep Payee as an organization. (See Appendix A for SSA’s
comments.)




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)   10
                                                                Other Matters
REP PAYEE REPORTS

To determine whether the Rep Payee properly reported to SSA how benefits were used,
we requested from SSA 21 RPRs for beneficiaries and recipients in the Rep Payee’s
room-and-board facility. SSA was unable to locate 7 of the 21 RPRs. Because SSA did
not provide all the RPRs requested, we could not independently confirm that the Rep
Payee met her reporting responsibilities. For the seven RPRs SSA did not provide, we
do not know whether the Rep Payee failed to submit them, or submitted the RPRs to
SSA and SSA could not locate them. Further, the Rep Payee did not maintain copies of
the RPRs and, hence, could not determine whether she had received the RPRs from
SSA or completed them.

REP PAYEE CLASSIFICATION

SSA uses two general categories for classifying representative payees. The general
classifications are (1) “Individual Payee” and (2) “Organizational Payee.” These
classifications determine the nature and extent of SSA’s monitoring of such payees.
We found that SSA’s criteria for determining Rep Payee classifications are complicated,
unclear, and inconsistent; and, we believe, this contributed to the multiple classifications
of the Rep Payee we examined.

SSA defines an individual payee as a person serving as payee on the basis of his/her
personal relationship with the beneficiary. SSA defines an organizational payee as an
entity serving as payee as the agent, representative, or official of an institution, agency
or other organization. An institutional payee is considered a specific type of
organizational payee that provides care and treatment for the beneficiaries who reside
in the institution or in off-site facilities affiliated with the institution.7

SSA informed us that the Rep Payee we examined was classified as an individual
payee, since it was a room-and-board facility and did not provide proof of licensing.
However, SSA acknowledged that it never requested such licensing documentation.
Further, it should be noted that licensing is not a criterion for organizational payee
classification, but rather one of several factors in determining whether an organizational
payee can collect a fee.8

SSA’s policies and procedures emphasize the importance of determining the suitability
of a payee applicant and monitoring the payee’s performance. Also, correct Rep Payee
classification is considered critical to subsequent payee operations—including


7
    POMS Section GN 00501.012 B.3.
8
    POMS Section GN 00506.100 2.C.



Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)   11
accounting and targeted monitoring of high-risk Rep Payees.9 Therefore, it is important
for SSA to correctly identify and properly classify Rep Payees. Our audit showed that
45 of the 51 beneficiaries or recipients residing at PAL during the time of our review had
an individual designated as their Rep Payee. For these 45 beneficiaries or recipients,
the benefit checks were issued in the Rep Payee’s name for the beneficiary or recipient.
Also, six beneficiaries or recipients residing at PAL had PAL designated as their Rep
Payee and the benefit checks were issued to PAL. For several of these beneficiaries
and recipients, SSA originally listed PAL (the corporation) as the Rep Payee, but later
changed the Rep Payee from PAL to the name of the individual who represented PAL.
While we did not find any indications of misuse during our audit of PAL, SSA’s
inconsistent designation of a Rep Payee for PAL’s residents created potential problems
in applying SSA’s criteria for identifying high-risk payees. Further, SSA’s inconsistent
designation raises questions regarding who would be legally liable if misuse of funds
were to occur.

As a result, SSA should make improvements to its Rep Payee application and
record-keeping processes. It should (1) clarify in its policies and procedures who is
considered the owner when referring to a room-and-board residence; (2) improve its
application process to ensure that Rep Payees are properly classified as “Individual” or
“Organizational” Rep Payees; and (3) ensure that Rep Payee applications are
retrievable in the event specific applications are needed for investigation when misuse
is alleged.




9
    POMS Section GN 00501.012.A



Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)   12
                                                          Appendices




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)
                                                                            Appendix A

Agency Comments




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)
                SOCIAL SECURITY ADMINISTRATION                                                 REGION VI
                                                                                            MEMORANDUM


 Date:   September 27, 2001

 From: Regional Commissioner
       Dallas

Subject: Response: Financial-Related Audit of an Individual Representative Payee for the Social Security
         Administration in Region VI (A-06-00-10063)

To:       Inspector General

          We appreciate the thorough review you conducted of this representative payee. In your
          memorandum dated August 27, 2001, you offered us the opportunity to respond to the
          facts and recommendations presented in the audit. Following are our responses to the
          recommendations you cited:

          Recommendation

          Work with the Rep Payee to determine the appropriate level of documentation to account for and
          report on the receipt and disbursement of SSA benefits in accordance with SSA’s policies and
          procedures, including procedures to properly account for and safeguard individual funds and
          accurately complete RPRs [representative payee reports]. These procedures should clearly
          address the need for timely, accurate cash logs as well as the need to establish and maintain
          individual ledger sheets as deemed appropriate.

          Response

          We agree. We will ask the local SSA office to work with the payee to ensure proper record
          keeping and accurate representative payee reports.

          Recommendation

          Ensure that multiple identities are not used for this Rep Payee in RPS.

          Response

          We agree. We will ask the local SSA office to consolidate the RPS entries for this payee
          and to properly classify this payee as an organization rather than as an individual payee.
          We note that while this is the correct action to take according to current representative
          payee policy, this payee would not have been subject to an audit, had the payee been
          properly classified. Accordingly, we will ask the SSA offices parallel to the other payees
          with 20 or more beneficiaries currently classified as individuals to determine whether this
          classification is accurate for them.


          Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)       A-1
If you have any questions about this response, please call me. If your staff has questions,
please have them call Jim Matthews, Center for Programs and Systems, Management and
Operations Support at (214) 767-2808.

                                                    /s/

                                                    Earl Melebeck for
                                                    Horace L. Dickerson, Jr.

cc:    Area Director, Area 1
       District Manager, Shawnee, OK
       Denver-Dallas RSI Team




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)       A-2
                                                                            Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

    Paul Davila, Deputy Director, (214) 767-6317

Acknowledgments
In addition to those named above:

    Billy W. Mize, Auditor-in-Charge


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-06-00-10063.




Financial-Related Audit of An Individual Rep Payee for SSA in Region VI (A-06-00-10063)
                           DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                1
Management Analysis and Audit Program Support Staff, OFAM                     10
Inspector General                                                              1
Assistant Inspector General for Investigations                                 1
Assistant Inspector General for Executive Operations                           3
Assistant Inspector General for Audit                                          1
Deputy Assistant Inspector General for Audit                                   1
 Director, Systems Audit Division                                              1
 Director, Financial Management and Performance Monitoring Audit Division      1
 Director, Operational Audit Division                                          1
 Director, Disability Program Audit Division                                   1
 Director, Program Benefits Audit Division                                     1
 Director, General Management Audit Division                                   1
Issue Area Team Leaders                                                       25
Income Maintenance Branch, Office of Management and Budget                     1
Chairman, Committee on Ways and Means                                          1
Ranking Minority Member, Committee on Ways and Means                           1
Chief of Staff, Committee on Ways and Means                                    1
Chairman, Subcommittee on Social Security                                      2
Ranking Minority Member, Subcommittee on Social Security                       1
Majority Staff Director, Subcommittee on Social Security                       2
Minority Staff Director, Subcommittee on Social Security                       2
Chairman, Subcommittee on Human Resources                                      1
Ranking Minority Member, Subcommittee on Human Resources                       1
Chairman, Committee on Budget, House of Representatives                        1
Ranking Minority Member, Committee on Budget, House of Representatives         1
Chairman, Committee on Government Reform and Oversight                         1
Ranking Minority Member, Committee on Government Reform and Oversight          1
Chairman, Committee on Governmental Affairs                                    1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
